LAW OFFICES OF

KEVIN T. BARNES

KEVIN T. BARNES
GREGG LANDER
___

1635 PONTIUS AVENUE, SECOND FLOOR
LOS ANGELES, CALIFORNIA 90025-3361

OF COUNSEL:
JOSEPH ANTONELLI

TELEPHONE: (323) 549-9100
Toll-Free: (877) 309-3577 / FAX: (323) 549-0101

A Professional Law Corporation
___
www.kbarnes.com
___
Barnes@kbarnes.com

August 4, 2021
By Electronic Filing
Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

No. 20-1573, Viking River Cruises, Inc. v. Moriana

Dear Mr. Bickell:
I am counsel for respondent in the above-referenced case. On May 13, 2021, a
petition for a writ of certiorari was docketed in this case, and on July 13, 2021, the
Court requested that a response be filed. Unless extended by the Court, the
response would be due on August 12, 2021. For the reasons that follow, and
pursuant to Rule 30.4, I respectfully request an extension of 29 days, to and
including Friday, September 10, 2021.
Following the Court’s request for a response, we associated new cocounsel to
provide substantial assistance in its preparation. Cocounsel requires time to
familiarize himself with the case and the five amicus briefs filed in support of the
petition. Cocounsel also has a number of concurrent pressing obligations, including
participation in merits briefing in two cases in which the Court recently granted
certiorari. In addition, I have other significant obligations in other matters,
including a full-day mediation on August 9, 2021, taking depositions for a class
certification motion reply currently due August 23, 2021, and had also planned to be
out of the office from August 10, 2021 to August 16, 2021. An extension will allow us
to meet these obligations while preparing a response that adequately addresses the
points raised in the petition.
For these reasons, I ask that an extension be granted to and including
September 10, 2021. Thank you for your attention to this matter.
Sincerely yours,

Kevin T. Barnes
Counsel for Respondent
cc: Paul Clement, Counsel for Petitioner

